<html>
<title> - [H.A.S.C. No. 114-26]FISCAL YEAR 2016 GROUND FORCE MODERNIZATION AND ROTORCRAFT MODERNIZATION PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         
                          [H.A.S.C. No. 114-26]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                     FISCAL YEAR 2016 GROUND FORCE

          MODERNIZATION AND ROTORCRAFT MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 19, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                        U.S. GOVERNMENT PUBLISHING OFFICE
94-228                       WASHINGTON : 2015                        
_______________________________________________________________________________________                                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  
               
              
              
              
              
              
              
              
              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Grosklags, VADM Paul A., USN, Principal Military Deputy to the 
  Assistant Secretary of the Navy (Research, Development, and 
  Acquisition), U.S. Navy; accompanied by BGEN Joseph Shrader, 
  USMC, Commanding General, Marine Corps Systems Command, and 
  William E. Taylor, Program Executive Officer Land Systems, U.S. 
  Marine Corps...................................................     4
Williamson, LTG Michael E., USA, Military Deputy to the Assistant 
  Secretary of the Army (Acquisition, Logistics and Technology); 
  accompanied by LTG Anthony R. Ierardi, USA, Deputy Chief of 
  Staff, G-8, and MG Michael D. Lundy, USA, Commander, Army 
  Aviation Center of Excellence..................................     3

                                APPENDIX

Prepared Statements:

    Grosklags, VADM Paul A., joint with BGEN Joseph Shrader and 
      William E. Taylor..........................................    39
    Williamson, LTG Michael E., joint with LTG Anthony R. Ierardi    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Sanchez..................................................    59

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................    63
    Mr. Wilson...................................................    67
      
 
            FISCAL YEAR 2016 GROUND FORCE MODERNIZATION AND ROTORCRAFT 
                         MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, March 19, 2015.
    The subcommittee met, pursuant to call, at 10:46 a.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. Hearing will now come to order. Today, the 
subcommittee convenes to receive testimony on the fiscal year 
2016 budget request for Army and Marine Corps ground force and 
rotorcraft modernization programs.
    I am pleased to welcome our distinguished panel of 
witnesses. We have Lieutenant General Michael E. Williamson, 
Military Deputy to the Assistant Secretary of the Army 
(Acquisition, Logistics and Technology); Lieutenant General 
Anthony R. Ierardi, Deputy Chief of Staff, G-8; Major General 
Michael D. Lundy, Commander, Army Aviation Center of 
Excellence; Vice Admiral Paul A. Grosklags, Principal Military 
Deputy to the Assistant Secretary of the Navy (Research, 
Development and Acquisition); Brigadier General Joseph Shrader, 
Commanding General, Marine Corps Systems Command; Mr. William 
E. Taylor, Program Executive Officer Land Systems.
    Gentlemen, thank you all for being with us today. And thank 
you for your service. Modernization continues to be a top 
priority for this committee. The committee, through the annual 
defense authorization process, has prevented production breaks 
for critical armor platforms, such as the Abrams tank. Given 
the current situation in Ukraine and the return of armor to 
Europe, this was the right decision.
    The committee has also helped to ensure the Department was 
developing and buying the best possible personal protective and 
individual equipment for the warfighter. We will continue to 
work to find ways to help incentivize the industrial base to 
continue investment and innovation in this area.
    For the Army, this will be an important year for the ground 
program such as Abrams, Bradley, Paladin MV, and Stryker 
modernization. The Marine Corps has finalized requirements for 
a family of amphibious combat vehicles and is pursuing a 
streamlined acquisition strategy that, of course, we are 
watching closely.
    As we go forward, the committee will continue to ensure 
modernization strategies address current and future threats. 
However, all that progress could come unraveled, given the 
budgetary environment. As you know, I voted against 
sequestration. And recently, I wrote a letter to the Speaker 
about the need to increase the topline to the defense budget. 
The letter had over 70 signatures committing to fully funding 
our national security.
    The budget process is still playing out. But I fear that 
the nightmare of marking the budget request to sequestration 
levels may become a reality. And of course, as you know, the 
Budget Committee is diligently working today.
    So what does that mean for modernization? Tradeoffs and 
significant funding reductions to critical programs will have 
to be made. The industrial base will be impacted at every 
level. General Odierno, the Chief of Staff of the Army, has 
stated the Army would experience an overall modernization 
investment decrease of 40 percent, effectively impacting every 
program.
    The Department survived the first round of sequester, but 
not by much. Programs were still delayed, cutbacks were made 
for training, and we essentially robbed Peter to pay Paul. We 
have exhausted those options. The reality is the military is 
caught between rising obligations and shrinking budgets.
    So in addition to receiving updates on Army and Marine 
Corps programs, I have asked our witnesses to prepare to 
discuss potential impacts of sequestrations on these programs. 
I am concerned that we are dropping our guard right as the 
world is falling apart. We either make smart, targeted 
investments now, or we pay for that as failure on down the 
road.
    The protection of our national defense and of the security 
of the American people must come first. I would like to thank 
Loretta Sanchez, my ranking member, who has not yet been able 
to make it to the hearing. When she does, I know she has an 
opening statement. I am going to be turning this hearing over 
to the able hands of my vice chair, Paul Cook, after I open it 
with this question. And I would like----
    Staffer. [Off mike.]
    Mr. Turner. Sorry. Yes. Great, excellent.
    I am going to pose this question for you, that after your 
opening statements I would like you to begin with and perhaps 
work into your statements. And that question is that in the 
budget discussion, they currently are looking at funding 
overseas contingency operations [OCO], and with a base budget 
that is at the budget control levels. How does the mix between 
OCO and base budget affect your overall operations and issues 
with respect to acquisition?
    Now turning to then the opening statements. We will go to 
General Williamson. And I will be handing the gavel over to Mr. 
Cook. Thank you, gentlemen.

STATEMENT OF LTG MICHAEL E. WILLIAMSON, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND 
TECHNOLOGY); ACCOMPANIED BY LTG ANTHONY R. IERARDI, USA, DEPUTY 
 CHIEF OF STAFF, G-8, AND MG MICHAEL D. LUNDY, USA, COMMANDER, 
               ARMY AVIATION CENTER OF EXCELLENCE

    General Williamson. Thank you, Chairman Turner and other 
distinguished members of the Subcommittee on Tactical Air and 
Land Forces. Thank you for the invitation to discuss the Army's 
fiscal year 2016 ground force modernization and rotorcraft 
modernization programs and for this opportunity to appear with 
our Navy and Marine Corps counterparts.
    With me today are Lieutenant General Tony Ierardi and 
Marine Corps--the Army's Deputy Chief of Staff G-8 and Major 
General Michael Lundy, the Commanding General of the U.S. Army 
Aviation Center of Excellence in Fort Rucker.
    Mr. Chairman, I respectfully request that our written 
statement be made a part of the record for today's hearing.
    Equipping soldiers to meet Army warfighting challenges and 
to become a leaner, more lethal, and expeditionary asset to the 
joint force requires investments in both non-developmental and 
developmental capabilities. Non-developmental capabilities, 
such as information technology, will leverage commercial 
technologies that don't require a significant Army science and 
technology or research and development investment, saving both 
time and taxpayer dollars.
    Developmental capabilities will most often be used in areas 
where the Army drives advancement and investment, such as 
combat vehicle technology; rotary aviation; lethality; and 
intelligence, surveillance, and reconnaissance. We will 
continue to take advantage of existing technologies, while 
investing in the research to produce significant technological 
change with military application.
    We are also working to ensure a balanced approach to 
modernization. First, the Army will preserve science and 
technology investment in key enabling technologies to support 
next-generation modernization efforts when resources become 
available. Examples of this investment include the development 
of the future lift--future vertical lift capability to guide 
future aviation modernization, advanced body armor and 
individual protective equipment to provide force protection 
against a range of evolving threats, and addressing emergency 
gaps such as cyber and electronic warfare as we operate in a 
contested information environment.
    Second, the Army will continue selected investment in new 
capabilities that improve lethality, such as Patriot Missile 
Segment Enhancement and the Joint Air-to-Ground Missile, as 
well as network mission command capabilities such as the family 
of tactical radios, including the Manpack and Rifleman Radio.
    Third, the Army will invest in incremental modernization of 
existing platforms to improve performance and address existing 
limitations in the area of network communications and energy 
consumption. Combat vehicle modernization includes the Abrams 
tank, the Bradley infantry fighting vehicle, and Stryker 
engineering change proposal programs. Aviation modernization 
includes existing upgrades to our Black Hawk, Apache, and 
Chinook aviation platforms to improve engine performance, 
digitize cockpits, and support joint operations.
    Fourth, the Army will continue to reset our existing 
inventory of equipment returning from theater to enable near-
term readiness for contingency operations.
    Fifth, the Army will continue the divestiture of selected 
legacy systems to reduce our sustainment costs. Examples 
include divesting tactical wheeled vehicles in favor of the 
Joint Light Tactical Vehicle and divesting the aging M-1113 
armored personnel carriers in favor of the Armored Multi-
Purpose Vehicle.
    Mr. Chairman, while General Ierardi will discuss with the 
committee this morning his concerns on sequestration from a 
resource perspective and share the impacts that the Budget 
Control Act will have on instability to our programs across all 
of our portfolios, I will discuss with you how our 
modernization accounts ensure our soldiers have the best 
equipment available and to maintain critical parts of the 
defense industrial base.
    Another round of defense sequestration in fiscal year 2016 
will have major impacts on Army modernization. These impacts 
include delays in equipment support to expeditionary forces, 
delays in combat vehicle and aviation modernization, increases 
in sustainment costs to fix older equipment, increases in 
capability gaps, higher unit cost, and stretched procurement 
schedules.
    The Army's modernization budget remains near historic lows. 
Still, our modernization mission to develop and procure systems 
that allow our soldiers to dominate across the full spectrum of 
operations remains essential. We must always ensure our 
soldiers have the right equipment at the right time and at the 
right place to accomplish their assigned mission.
    Mr. Chairman and distinguished members of the subcommittee, 
we greatly appreciate and thank you for your steadfast and 
strong support of the outstanding men and women of the United 
States Army, our Army civilians, and their families.
    This concludes my opening remarks. And we look forward to 
your questions.
    [The joint prepared statement of General Williamson and 
General Ierardi can be found in the Appendix on page 23.]
    Mr. Cook [presiding]. Thank you, General. Because of the 
time constraints, what we are going to do is just have two 
opening statements. And then, of course, we will get right to 
questions and answers. And I apologize for, you know, what is 
going on here today. This is a very, very important hearing.
    But right now, if I could turn to Admiral Grosklags, if you 
could give your opening statement, I would appreciate it.

 STATEMENT OF VADM PAUL A. GROSKLAGS, USN, PRINCIPAL MILITARY 
   DEPUTY TO THE ASSISTANT SECRETARY OF THE NAVY (RESEARCH, 
   DEVELOPMENT AND ACQUISITION); ACCOMPANIED BY BGEN JOSEPH 
    SHRADER, USMC, COMMANDING GENERAL, MARINE CORPS SYSTEMS 
COMMAND, AND WILLIAM E. TAYLOR, PROGRAM EXECUTIVE OFFICER LAND 
                   SYSTEMS, U.S. MARINE CORPS

    Admiral Grosklags. Sure. Mr. Chairman, distinguished 
members of the subcommittee, thank you for the opportunity to 
appear before you today to address our Marine Corps ground 
systems and rotorcraft modernization programs.
    Joining me today is Brigadier General Joe Shrader, 
Commander of the Marine Corps Systems Command, and Mr. Bill 
Taylor, our Program Executive Officer [PEO] from Marine Corps 
Land Systems. We also have submitted a formal statement for the 
record. And I will be brief in my opening remarks.
    The challenges of the current and future environment demand 
that our Nation maintains a force and readiness that is capable 
of global response, literally today or tomorrow. Your force for 
that readiness is the United States Marine Corps. And to ensure 
the readiness and capability of our Marine Corps required to 
execute that global response, we continue to pursue a balanced 
approach, a balanced perspective to our force that is flexible, 
survivable, lethal, and highly expeditionary.
    From a modernization-specifics perspective, this requires 
careful allocation of our limited resources to those areas 
which promise the most operationally effective payoff. Our 
ground combat tactical vehicle modernization strategy is a 
prime example of that approach. The Amphibious Combat Vehicle, 
or ACV, is the Marine Corps number one modernization priority. 
The Joint Light Tactical Vehicle program, or JLTV program, is 
our second-highest priority.
    Together, those two programs form the core of a strategy 
that will sustain and enhance the mobility of our ground combat 
element well into the future. Our PB16 [President's budget for 
fiscal year 2016] requests support of the ACV development 
program and, in coordination with the Army, supports low-rate 
initial production of the JLTV.
    In parallel, we continue modernization of the vertical lift 
component of our air combat element. With the continued support 
of Congress, we will complete our procurement of the UH-1 
Yankee [Y] in fiscal year 2016 and the AH-1 Zulu [Z] in fiscal 
year 2019. The current V-22 multiyear program continues through 
fiscal year 2017 and will nearly complete the procurement 
objective of 360 aircraft.
    And finally, the CH-53K development program is anticipating 
a first flight this calendar year in 2015, and low-rate initial 
production starting next year.
    The Marine Corps will remain America's expeditionary force 
in readiness. And as already stated, this means that the 
Marines must be ready to fight tomorrow. This in turn requires 
readiness of the current force to be prioritized over all other 
investments.
    However, the Marines tasked with meeting the future threat 
will be dependent upon the equipment provided by the 
modernization programs of today. These programs, such as those 
I have just mentioned, are dependent upon stable, predictable 
funding at a level commensurate with our PB16 request. Over 
time, under-investing in modernization will result in 
maintaining older or obsolete equipment at a higher cost and 
with degraded capabilities. It will erode our Marines' 
warfighting advantage.
    If I could, I will just continue into answering the 
chairman's question about OCO. Our preference is certainly to 
fund our programs in accordance with how we have proposed the 
PB16 submit. That provides us with a stability and the 
predictability that our programs require to execute their tasks 
efficiently. It enables industry to plan effectively and 
efficiently because they understand what is in the budget.
    While we certainly wouldn't turn down OCO--I mean, funding 
the program regardless of the source of the funds is better 
than not funding the program, to ensure that we have the 
readiness and the capabilities that we need. But it presents a 
significant number of challenges for us to effectively and 
efficiently utilize those dollars.
    Some things to consider. If we take more of our base and 
put it into OCO, is a discussion of which parts of that base do 
go into OCO. Because it will have potential long-term 
ramifications for the health of those areas of our programs who 
are no longer considered part of the base. So in concert with 
Congress, if we go down this path, we would ask that we have 
some significant discussions, if you will, about how we 
mechanize that.
    Enabling additional flexibility in how we spend dollars 
that are funded via OCO would also be important, as there are 
restrictions on us today that would make--again, dependent upon 
which part of the base is put into OCO, very difficult to 
execute.
    So there are some near-term implications. But quite 
honestly, I am more concerned about the long-term implications 
for our planning, our budgeting. Not only internal to the 
services, but also with our industry partners and where are 
they going to invest, where do they see the budget going in the 
future.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Admiral Grosklags, General 
Shrader, and Mr. Taylor can be found in the Appendix on page 
39.]
    Mr. Cook. Thank you, Admiral.
    And I just want to make a couple of comments. And maybe we 
should have had this hearing in a couple of weeks. Because 
obviously, everybody has been following the drama. And of 
course, that is going to be the big question in terms of 
operational contingencies and what part of the budget--and I 
don't want to get ahead of the Budget Committee. I don't want 
to throw anybody. But that right now is being discussed. And 
the reason I said maybe we should have this hearing in 2 weeks 
is exactly we would address those methods or ways how we can do 
that.
    You have got a lot of support on this committee and on the 
House Armed Services Committee in general. But you have to 
remember--and I am not preaching to you. You know, your 
establishment knows more about the military than anybody else. 
But I think I get educated pretty well. But if you are not on 
the House Armed Services Committee, a lot of the people don't 
understand the importance of some of these programs that we are 
talking about.
    So maybe what I am suggesting is if you could expand who 
you talk to in the district or what have you. And it is going 
to become even more complicated when we start discussing the 
role of the OCO and the operational contingencies and what fits 
in there. It is lot of money. We are going to have a lot of 
battles going on one way or the other. And a lot of us are 
going to come back to you--and I am probably going to be one of 
them--saying that how do we do this in terms--and it is not 
going to be about how much armor is on this or the plating for 
the M-1 battle tank or--it is going to be probably in the next 
few weeks a budgetary question. And I hate to sound so 
pedantic. But that is--that is what we have to look forward to.
    What I am going to do right now is--the ranking member is 
not here. But I was going to ask Ms. Duckworth to be the 
ranking member right now in the absence of Ms. Sanchez. Thank 
you.
    Ms. Duckworth. Happy to serve, Mr. Chairman.
    Mr. Cook. Thank you.
    Ms. Duckworth. General Shrader, I wanted to sort of chat 
with you a little bit about the JLTV specifically. And I know 
the Marine Corps and the Army have been working well together 
to develop the JLTV to replace the Humvee. My understanding is 
that the sustainment modification initiative [SMI] was going to 
be put into place to help us bridge that gap to modernize your 
existing Humvees before the JLTV procurement process is 
completed. However, last week on the Senate side, General 
Krulak testified that SMI for Humvees has since been canceled 
due to sequestration and there is no money for this program in 
the budget.
    So my question is, given that the Marine Corps is expecting 
only 5,500 JLTVs in service by 2022 and the original 
modification plan has been canceled, what is the plan to bridge 
the gap of sustainment and modernization of the legacy vehicles 
until the JLTV program is fully realized?
    General Shrader. Ma'am, thank you for the question. So 
within the ground combat tactical vehicle strategy that we have 
put out there, we did have a balance and a plan to cover both 
the JLTV and the Humvee as they come on board. If I could, 
ma'am, the program rests within PEO Land Systems, Mr. Bill 
Taylor, who is here, and if I could invite him to address the 
more--the details of your question.
    Ms. Duckworth. Great. Thank you.
    General Shrader. Yes, ma'am.
    Ms. Duckworth. Mr. Taylor.
    Mr. Taylor. Congresswoman Duckworth, you are correct that 
the program was, in fact, terminated. But we were allowed to 
continue the non-recurring effort associated with that program 
such that we have actually completed the development work and 
put three capability packages on the shelf. So if in times of 
prosperity, the Marine Corps can return to those engineering 
proposals and reconsider instituting them in terms of 
procurement. But the R&D [research and development] is 
completed and those capability packages are on the shelf and 
ready for procurement if the Marine Corps decides to do that.
    Ms. Duckworth. So what you are saying is--are you saying 
that you are willing to assume the risk of not modernizing the 
Humvees or the SMI packages, but you have the information--you 
have the packages there ready----
    Mr. Taylor. That is a service-level decision. They have 
decided to assume the risk and sustain the remaining fleet of 
Humvees. But they have these capability packages at the ready, 
should they determine that they need to pursue those.
    Ms. Duckworth. What is the timeline from when you decided 
you wanted to go ahead and implement if the services decided 
yes, we actually do want to implement this?
    Mr. Taylor. I would say approximately 1 year to the point 
that we could start procuring those capability packages.
    Ms. Duckworth. Okay. And then will the Army National Guard 
and Marine Corps Reserves unit receive their JLTVs concurrently 
with the Active Duty counterparts, along with the SMIs, as 
well?
    Mr. Taylor. The fielding strategy is in draft form right 
now. They have identified quantities and major commands. Beyond 
that, the Reserves are scheduled to get those after the Active 
forces.
    Ms. Duckworth. And what is the projected status of the 
Humvees in the Marine Corps right now in terms of protection 
and interoperability in light of the canceled SMI?
    Mr. Taylor. The current plan is to sustain the fleet as is. 
They will continue to go through a depot reset.
    Ms. Duckworth. You know, I really do--and again, I am 
preaching to the choir here. You guys are being forced to make 
some really tough decisions that put our troops at great risk, 
potentially great risk, as a result of sequestration; something 
that we certainly on this side of the hearing room need to do 
our job to end. And I have some real concerns that with the 
short timeline we expect you to react to fielding of troops and 
equipment, that we are putting you in a very difficult 
situation. Thank you for that.
    My next question is really going to be, obviously, on the 
Army, the aviation modernization program and also the 
restructuring initiative. I understand the important cost-
saving reforms from last year--and some of this continues a hot 
topic in ARI [Aviation Restructuring Initiative] as it stands. 
My understanding is all Apaches are on hold in terms of the 
transfer, except for 48 that can be transferred starting next 
fiscal year. Is that correct? I don't know who----
    General Lundy. Yes, ma'am, that is correct.
    Ms. Duckworth. That is correct? So if ARI was to be fully 
implemented, what is the timeline for the modernization of 
those 111 Black Hawks going to the Guard as part of the ARI?
    General Lundy. Ma'am, I can answer that one. The 
modernization strategy for the National Guard, as well as for 
all compos, it is multiple components. It is not just whether 
we are going to go from an A to--from an Alpha [A] model to a 
Lima [L] model or a Lima to a Mike [M]. But it also has ITEP 
[improved turbine engine program] and other things. So there 
are multiple modernization efforts that are going on.
    As we look at moving forward, 2023 is when we are going to 
divest--2023 right now. We have been able to accelerate that 
because of ARI--we will be able to divest all of the A models. 
And we have 600 right now that are across the inventory. So 
they will be out of the National Guard by 2023 and out of the 
Active Component.
    We are currently converting Limas to Victor [V] models, 
which is the full-integrated glass cockpit. Those we are going 
to start fielding in 2018. The majority of those are going into 
the National Guard and the Army Reserve. And we are continuing 
to field Mike models.
    So by 20--depending on which piece of the modernization you 
are looking at, the oldest ones, the ones we really have to get 
out, will be out of the inventory by 2023. We will have Victors 
starting to go in. And that will go between 2018 and 2032. And 
then our Mike models will finish about 2028. So there are a 
number of modernization efforts. And then we will go back in 
and put the new turbine engine into each one of them. So that 
is going to be another modernization effort. And that is going 
to be balanced between all three compos.
    Ms. Duckworth. Okay. Well, I am from a State that doesn't 
have Apaches. So I have got no dog in that----
    General Lundy. Yes, ma'am.
    Ms. Duckworth [continuing]. In that hunt. But I have got to 
say that I am concerned about those States that do have 
Apaches. And I want to make sure that if you are moving the 
Apaches out of the Guard, before those Hawks show up, that 
those crews are actually getting the slots to go to schools so 
that they can get qualified and the qual [qualification] 
courses, the Q courses, so that they are ready to go when those 
aircraft show up. I wouldn't want to see crews sitting around 
for 18, 24 months and then suddenly the Apaches show up and 
they are not qualified. Now you are just sending guys--it is 
going to take forever for them to get up to RL1 [Readiness 
Level 1].
    General Lundy. Yes, ma'am. No, you are exactly right. That 
is clearly a part of our strategy. That is why the timing is so 
important. Because we only have so much capacity in the 
schools. So as we--you know, this is a pretty good integrated 
effort across modernization and all of the different things, 
training and sustainment. And so we have to have the timing to 
where I have got space in the school to do that. We have that 
space set aside. It is clear within the plan right now that we 
will be able to train not only all of the National Guard 
aviators, Army Reserve aviators, and our Kiowa aviators that 
are going to be converting to 64 [Apache AH-64].
    So ARI is very important from a timing perspective. And it 
also gives us the space to do all this modernization. Because 
if we don't do that, all of those UH-60s are going to slide out 
to the right. That is going to be the bill payer for that--if 
we don't do ARI.
    Ms. Duckworth. Right. And the schools are not just for the 
pilots; correct? You are talking about all the aviators, the 
entire air crew?
    General Lundy. Yes, ma'am. The crew chiefs, we are training 
them at Fort Eustis, as well as at both the National Guard 
training centers. So we--this is a fully integrated effort 
across all three compos, components, and we have it locked 
pretty tight right now. So that has been the most difficult 
thing. And we just completed fully synchronizing that. So I 
think we are in great shape.
    Ms. Duckworth. Okay. Great. Well, if you ever want to see 
the oldest flying Black Hawk in the Army inventory, I invite 
you to come to Illinois and----
    General Lundy. Yes, ma'am.
    Ms. Duckworth [continuing]. And visit it. Fourth off the 
production line, 1978 model.
    General Lundy. And that is a--that is a huge concern for me 
as I look at all three components. I still have a number of EH-
60s that are converted to Alpha models down in Fort Rucker. So 
we do need to get, you know, the National Guard modernized, as 
well as the Army Reserve.
    Ms. Duckworth. Yes. Because I like to get those--we call 
them ``Frankenhawks'' in Illinois because of the----
    General Lundy. Yes, ma'am.
    Ms. Duckworth [continuing]. They are not actually true 
Alpha models----
    General Lundy. Yes, ma'am.
    Ms. Duckworth [continuing]. But they are Frankenhawks. 
Thank you.
    Again, I think that the fact that you are here and that 
what we are all talking about here--the common theme is we need 
to work on sequestration so that our military and our men and 
women who put on a uniform and who are willing to take the 
fight to the enemy have everything that they need.
    And I am concerned that what we are doing is we are 
structuring the force to the dollars and the political will, as 
opposed to figuring out what we need you to do and then 
sustaining and giving you the resources to do what you need. 
And the games that we are playing, we are putting money into 
OCO funding as opposed to the base budget, puts you in a really 
tough position as the professionals that we ask you to be to 
maintain our Nation's military.
    So I thank you for what you do. And we are going to work as 
hard as we can on this side. And I know I certainly will. So 
thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cook. Thank you. The latest is vote is going to be 
11:30.
    And right now we will go with Congressman Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman. I appreciate the 
panelists being here. Thank you for your service to our 
country, sacrifices of your family.
    And I want you to know I am listening very carefully and 
you are communicating effectively. We understand impacts of 
sequester, which was never meant to be the plan. It was a 
backup to force--really, for us to get our work done. And, you 
know, in 2012, we had a budget--bipartisan budget that was 
fashioned roughly off Simpson-Bowles. And I was one of 38 that 
voted for that. And then in December of 2013, I supported the 
bipartisan agreement that delayed the sequester for a couple of 
years.
    So, you know, ideally we will get an agreement that 
completely eliminates sequester. But at a minimum, I want to 
get one that we can have several years of stability of the 
consistent important funding levels that you need. I wanted to 
say that up front.
    The question has to do with the transition from Kiowa to 
the Echo [E] model of Apaches. I am hearing good things on 
that. This is an Army program, obviously. So--and in addition 
to the Echo model, also the Drone [D] interim solution. So one, 
the reports I am getting, which are sort of anecdotal, I would 
like to confirm that that transition seems to be going well. 
And in particular, I am interested in knowing how from a human 
dimension, a training perspective, how the Kiowa pilots are 
doing in making that transition to the platform, the Echo 
model.
    General Lundy. Sir, I can answer that pretty quickly. I 
know we are short on time. One, the E model just--our first 
battalion deployed to Afghanistan, and the performance was 
absolutely phenomenal. It is a leap between the AH-64D and the 
AH-64E. And we did man-on-man teaming over there. We are doing 
man-on-man teaming right now as we do operations in the other 
part of the theater.
    We have just recently done some training at the National 
Training Center. We just really had our first integrated 
rotation out there. So that is going very well. We are 
finishing training some of our first OH-58 [Kiowa] crew 
members, both in the Apache and we actually had a number that 
volunteered to go into the unmanned systems, as well.
    So we are putting some trained Scout aviators flying our 
unmanned systems, which is really going to pay big dividends. 
We just graduated three. We are actually--two of them have done 
so well, we are keeping them at the schoolhouse to be 
instructor pilots on the flight line. So I think we are in very 
good shape. I don't see any issues with the training. And I am 
pretty happy with where we are at.
    Mr. Gibson. That is encouraging. And particularly 
appreciate hearing it from General Lundy, somebody who I know 
firsthand is a remarkable warfighter and a great leader. I want 
to--the next question has to do--it is a little deeper.
    And I am thinking here the new Armed Aerial Scout platform, 
I am very interested to know how the planning is going for 
that. Talk to me in terms of who we are engaging in the 
planning process and timelines and how that is going.
    General Lundy. Well, we are still developing--we still have 
a valid requirement for an Armed Aerial Scout. That has not 
changed. I mean, we made a fiscal decision based on the 
original 40 percent cuts that came into the aviation 
modernization portfolio, one of the reasons it drove ARI. So it 
remains a valid requirement. The chief has said it remains a 
valid requirement.
    We are continuing--really, where we are taking that now is 
taking a look at as we go into future vertical lift, what is 
going to be the armed reconnaissance capability that we have in 
future vertical lifts.
    We are doing a number of analysis of alternatives [AOAs] 
that are associated with the armed reconnaissance variant. We 
have got the--we have got the requirement already clearly 
identified for a conventional aircraft right now. So we are 
looking again at future vertical lift as being that next 
iteration of the armed Scout. Now, if something materializes 
between now and then, we are certainly going to remain agile 
enough that we can look at it. Because it is a valid 
requirement. But we are certainly going to be dependent upon 
the fiscal restraints that we have.
    Mr. Gibson. And just to follow up. In terms of engagements 
with think thanks and industry, is there a--has there been a 
plan to engage in that way, or has it been--talk me through 
that.
    General Lundy. Well, in future vertical lifts, which is 
where--we have a working industry group that is within that. So 
we meet at the joint level. This is a fully-integrated joint 
program from inception, which is great. The Marine Corps 
participates, as well as the Navy and the Air Force. And we 
have an industry consortium that participates in that. And we 
are really looking at all of the variants. And one subcomponent 
of that variant is the armed reconnaissance component. So as we 
are going through, that is where that is interacting.
    But I meet pretty routinely. We have done some industry 
days. And recruitment process outsourcing [RPO] is pretty 
active with that as well on engaging industry on future 
concepts and requirements.
    Mr. Gibson. I thank you for the update.
    And I yield back, Chairman. Thanks so much.
    Mr. Cook. Thank you.
    Congressman Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I had just one 
question, as I know the time is short.
    I wanted to ask particularly about if there is a slowdown 
in production on JLTV, what sort of impact would that have on 
the price, you know, per vehicle? Obviously, if you are going 
to be buying less due to sequestration, that you--there could 
be obviously be more cost per vehicle, as opposed if that was 
not present. So if you could just kind of help me understand 
that, that would be great.
    General Williamson. Sir, so your instincts are absolutely 
on target. The challenge for us is that--so we have developed a 
pretty detailed program plan for JLTV. I would tell you that it 
is probably one of the better programs that I have witnessed as 
an acquisition officer. And so the challenge for me is that--so 
when we perturb that plan because of fluctuations in the 
programming, that means we are going to have to negotiate in 
production--we will have to negotiate in production, if it is 
fewer quantities, which will drive the cost up considerably.
    And so we have worked really hard on affordability. And I 
will ask General Ierardi to comment on that. But it has been a 
focus of ours with this platform to maintain that affordability 
cap.
    General Ierardi. And sir, we have obviously worked, as 
General Williamson indicated, to keep the program affordable as 
we look to the future.
    In the context of BCA [Budget Control Act] levels of 
funding, JLTV and all of these programs, obviously, would be, 
you know, put in a position where we would have to evaluate 
carefully how we are buying, how we are programming for future 
buys. There will be impacts, regrettably, across the board in a 
number of programs if we are marked at BCA and have a BCA level 
of funding throughout our program period.
    Mr. Veasey. Thank you, Mr. Chairman. I yield back my time.
    Mr. Cook. Thank you.
    Congressman Knight.
    Mr. Knight. Thank you, Mr. Chair. And again, because we are 
so short on time, can you explain to me on the armored 
personnel carriers, the 113s, where we are on the fleet; how 
many we still have in service, how many are in theater, and 
where we are going with that and how quickly will they be gone?
    General Ierardi. Sir, I don't have the exact number of 113s 
in the inventory. There are quite a few. We have since stopped 
using these vehicles operationally. It is the Army's intent, 
and it is under execution now, to move away from the employment 
of M113s, which brings into the discussion the AMPV [Armored 
Multi-Purpose Vehicle], which is the follow-on vehicle to the 
M113 variant.
    It is an important capability for the Army the replace 
mobility that the M113s bring in the varied terrain that our 
armored and tracked vehicles operate. And so it is--AMPV is an 
important program for us to replace the M113s. They are not 
being used and haven't been used in some time in deployed 
environments.
    They are--having come from the 1st Cavalry Division as the 
commanding general, we still had them in our motor pools and 
used them in training. But by and large, we need to have that 
vehicle replaced. And it is our intent to replace it with the 
AMPV to get increased mobility and increased survivability for 
our soldiers.
    Mr. Knight. Very good. Thank you, sir.
    And Admiral, on the Joint Strike Fighter, I get the Joint 
Strike Fighter at Edwards Air Force Base, so we get the Air 
Force variant, but we don't get carrier variant as much. We do 
a little bit of testing out there. But since most of that is 
done at Pax River, I would like to see if there is an update on 
what you think about the Joint Strike Fighter, when it is going 
to be coming IOC [initial operating capability] and all that.
    Admiral Grosklags. Yes, sir. So the Marine Corps is up 
first with the IOC. We are still planning on that in summer, 
June or July. They are on track with both the software and the 
reconfiguration of the air vehicles for the IOC configuration. 
The squadron has stood up over the last year, the folks who are 
being trained and put in place. We think the Marine Corps IOC 
is definitely on track for this summer.
    The Air Force follows behind that. I won't speak to their 
timeline. Although, from everything I am aware of, they are on 
schedule as well for their IOC. The Navy is the third one out 
of the barrel. We have a threshold date of February of 2019, an 
objective date 6 months prior to that. We require release of 3F 
software, which a short explanation is that is the release that 
we believe is required for our carrier-based aircraft to be 
fully integrated with the rest of the air wing. So that is why 
the Navy is kind of at the end, because we are waiting for that 
3F software.
    That software is making progress. It has been delayed 
somewhere between 4 and 6 months based on a joint program 
office's estimate. That estimate has not changed over the last 
18 months. So it is not sliding to the right; they are holding 
the schedule. And we anticipate that that 3F will be available 
to the fleet approximately 6 months before we actually require 
it for IOC.
    So overall, the program is making steady progress forward. 
And we think they have been on track for the last year or two. 
The cost of the air vehicles is coming down and things are 
progressing.
    Mr. Knight. I fully agree. Thank you, Admiral.
    Thank you, Mr. Chair. I yield back.
    Mr. Cook. Thank you.
    I would like to welcome the ranking member that has 
arrived, Congresswoman Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And I do apologize to 
everybody for arriving late. And I thank Ms. Duckworth and 
others for holding down the fort, shall we say, when I was 
unfortunately detained.
    Okay. So I heard that you were talking about the 
helicopters. So I am not going to go into all the--I am talking 
about the Black Hawks. But I still have some very, very 
specific questions to that. And the first would be is it 
possible to accelerate the UH-60L helicopter upgrades in fiscal 
year 2016? There are already 40 in the budget. What is the 
limit at the Army depot in Corpus Christi, Texas?
    Secondly, the Army's budget already has 94 UH-60 
helicopters. The Navy budget has another 29. Could the 
production line and the multiyear contract with Sikorsky 
accommodate more helicopters in fiscal year 2016?
    And finally, am I right to be worried about the promised 
helicopters in the 2000--in the 2020s in terms of the pressure 
on the Army's budget? And can we be confident that funding will 
actually happen? Why don't we start there, gentlemen, because I 
don't see a lady----
    General Ierardi. Ranking Member, I will start with your 
final question. I think all programs at lower levels of funding 
would require our continued evaluation. So obviously, UH-60 
modernization for us is a very important effort. We would not 
want to change the priority that we have to modernize the UH-60 
Alphas. And we will strive to do that. Under----
    Ms. Sanchez. Can we accelerate them in the 2016 budget?
    General Williamson. So ma'am, we----
    Ms. Sanchez. The upgrades?
    General Williamson. Ma'am, we can go back and look at that. 
As you know, we workload our depots and maintenance facilities. 
And so they have sized their workforce, and they are associated 
with that funding. So I will take the action to go back and see 
what the growth capacity is within the current----
    Ms. Sanchez. Yes, if there is any capacity within the 
resources we currently have there would be interesting, since 
everybody wants Black Hawks.
    General Williamson. Yes, ma'am.
    Ms. Sanchez. What about multi--more helicopters?
    General Williamson. So ma'am, it is the same thing.
    Ms. Sanchez. Okay.
    General Williamson. So as you know, as we negotiate a 
multiyear contract, it is based on the number of aircraft and 
the timing. And so it would require us to go back and engage to 
see what it would take, if there is some ceiling.
    Ms. Sanchez. At what point could you give us a report on 
that? I mean, how long will it take you to sort of figure out 
is there capacity for us to get the modernization through? And 
is there also capacity to maybe buy a few more? Or if we wanted 
to buy a set of 10 more, for example, what would be the add-on 
cost would----
    General Williamson. Ma'am so----
    Ms. Sanchez. On the back of an envelope, I am asking. I am 
not talking about some historic big study.
    General Williamson. So on the back of the envelope, it 
would probably take me a couple of weeks. And the reason why is 
because there is some negotiation involved with the folks who 
have to do the work. And so I would actually not be inclined to 
say it is something that I would turn in days. I want to make 
sure that we come back with some accuracy. So I will get back 
with your office very quickly on the timeline and make sure 
that we provide those answers.
    [The information referred to can be found in the Appendix 
on page 59.]
    Ms. Sanchez. Perfect. And then with respect to the budget 
out into the 2020s, how do y'all feel?
    General Lundy. Well, ma'am, from a proponent perspective, 
the UH-60 modernization in the Guard is one of our number one 
issues. And it is obviously an issue for the National Guard, 
and it is also an issue for the Army Reserve and the Active 
Component. You know, we have got a mix of those aircraft.
    So from a proponent perspective, that will remain a 
priority. Certainly, you know, as the G-8 talked about, 
depending upon what funding levels come down, the Army may be 
forced to reprioritize. But certainly from the aviation level, 
that is a priority for us.
    General Ierardi. Ma'am, I have concerns given the lack of 
predictability in funding what past 2020 is going to look like. 
And frankly, I would not necessarily say that we would have the 
ability to accelerate based on where we are financially right 
now into the 2020s. I would hope that we would have the 
resources to be able to do what it is we are planning to do to 
modernize those aircraft. But can't speak to that right now.
    Ms. Sanchez. Thank you.
    Mr. Chairman, I have another question. But I am going to--
since I came late, I would like to get some of these newer 
members to get to ask their questions first. If you would 
indulge me on the return--on the round robin. Thank you.
    Mr. Cook. Thank you for being so magnanimous. It is tough 
for a marine to say that word. I certainly can't spell it.
    Congressman Moulton, you have a question? Oh, I am sorry. I 
thought we were going to go--I apologize. Gosh, such 
magnanimity.
    She didn't have any questions.
    [Off mike.]
    We are going to have a verse of kumbaya.
    Ms. Sanchez. You can tell we are all Democrats here.
    Mr. Cook. Hey, hey, hey.
    Mr. Moulton. Thanks very much, Mr. Chairman and my 
colleagues. I actually have just a question from the Marine 
Corps representative general. Could you speak a little bit 
about your small arms modernization plans and how much you 
intend to follow the Army's lead? Are you going to stick--are 
you going to move from the M16 to the M4, are you going to look 
for a replacement for the M9?
    General Shrader. So thank you for the question, sir. First 
I will address the rifle. So right now, the Marine Corps does 
plan to stick with the M4. We have also moved to the fourth 
generation of the M16, which is the M16A4. So those are the two 
workhorses, if you will, of the M16 family.
    Mr. Moulton. Are you continuing to buy M16A4s, or has the 
lessons from Iraq and Afghanistan pushed you more toward the 
M4? I mean, as someone who was issued an M16 and then worked 
hard to acquire an M4, I know there is a lot of feedback from 
the troops in the field that an M4 would be a more appropriate 
weapon. But you may have good reason to disagree.
    General Shrader. Sir, I would have to just go back to what 
I said earlier. Right now, we are not seeing a requirement to 
go away from the M16A4 that we are issuing, and then the M4 
also. We do have a small number of M4A1s that we are issuing as 
well. But right now we are staying with the M4 and the M16A4.
    On the handgun systems, sir, we do not have a requirement 
to move away right now from the M9 service pistol. And the 
other pistol that we have is the M45A1 close-quarters combat 
pistol. Those are our two service pistols that we have. We are 
working with the Army on their effort to--their modular handgun 
system program that they are working on and collaborating with 
them on that and working to see what will come out of that and 
make a decision downstream from that if we need to.
    Mr. Moulton. So you don't know at this point whether you 
will join in that program or not? You are just observing, 
collaborating?
    General Shrader. Yes, sir. Observing, collaborating. But 
right now we do not have a requirement that I am aware of to 
move away from the M9 and the M45A1, sir.
    Mr. Moulton. Do you not share some of the Army's concerns 
with lethality of the M9?
    General Shrader. Sir, I am not aware of the concerns that 
we would have that would cause us to move away from the M9, 
sir.
    Mr. Moulton. Okay. All right.
    Thank you, Mr. Chairman. I yield my time.
    Mr. Cook. Thank you. Before I give this back to 
Congresswoman Sanchez, just a comment about the questions there 
which I thought were great. Just a historical note that many 
years ago I was there when we made the transition from the M14 
to the M16. I must have cursed that weapon so many times. 
Because when it was first issued in Vietnam, it didn't work 
very, very well. And I said this thing would not last 5 years. 
And miracles happen. I have actually--that weapon has almost 
outlived me. And we are going to see who lasts longer. Miracles 
do happen.
    Congresswoman Sanchez, top that one.
    Ms. Sanchez. What were you talking about?
    Mr. Cook. The M14 to the M16. You weren't even born yet, I 
know you are going to tell me.
    Ms. Sanchez. Of course not, Mr. Chairman. I was not. You 
are totally correct on that.
    Okay. So I continue to hear inside and outside the military 
that the individual soldier or marine want a replacement for 
the M4 and the M4A1. Supposedly, the Army is conducting the 
caliber study that is going to take quite a long time. As far 
as I know, the Marine Corps is not doing a study.
    I know the services don't currently have a requirement for 
replacing the M4 and the M4A1, but do you think there should be 
such a requirement, given that when I look at the blogs, when I 
get calls, it is always about these things are jamming. The 
Army did a study a while back, 2 or 3 years ago. There are 
other weapons out there that jam less often. Requirement?
    General Ierardi. Ma'am, as the Army's G-8, I would say that 
right now our strategy to enhance--to continue to enhance, 
there has been over 90 improvements to the M16--the M4 Carbine, 
which moves forward that weapon, continues to move it forward. 
And it is a capable weapon. In my service in 1st Cavalry 
Division, I did not hear one complaint from my soldiers about 
the M4 Carbine. As a matter of fact, soldiers wanted the M4 for 
what it brings, which is a compact, easy to maintain, and 
capable weapon. And so----
    Ms. Sanchez. So you never heard a reliability issue with 
respect to that with the men that served with you, the men and 
women--men.
    General Ierardi. As I said, there have been a number of 
improvements in this weapon system. And our strategy right now 
is to continue to improve what we have while we look to procure 
new M4A1s.
    Ms. Sanchez. Okay. Well, I would beg to differ, with what I 
hear. So I will continue down this warpath of trying to get the 
individual soldier and marine a better weapon, especially with 
some of the studies that I have seen.
    My next and last question is about the ammunition that the 
Army and the Marines use. I am talking about the 5.56 
millimeter round. Obviously, you guys are using two different 
things, two different rounds. And you have procured several 
million rounds to date and you have used them in combat.
    While I understand how the demands of combat might have 
gotten us into the situation where two services are not using 
the same bullets, but I would like to better understand how we 
get out of that situation in the future. Because maintaining 
two different inventories of the same size combat ammunition is 
probably not the most efficient way to go. And I just think it 
looks bad. It makes us all look bad. At a time when Chairman 
Turner and many others are arguing about more funding for the 
DOD [Department of Defense], it appears very wasteful from the 
outside to have the Marines and the Army not buying the same 
bullets.
    So my questions are, do the Army and Marine Corps agree 
that the M855A1, the Army round, meets the requirements for an 
improved 5.56 millimeter round? If not, where do you diverge or 
disagree? What specific test events, if any, are planned to 
provide more information on the performance of the Army's 
round? And finally, it has been suggested that the Army's round 
somehow does damage to the weapons that it is used in. Do you 
believe that is true?
    General Williamson. So ma'am I will give a short answer. So 
we have standardized on this ammunition. And as you know, we 
buy considerable quantities. I have no test data to support the 
fact that it caused more jamming or damage to the weapon. As 
you know, when we looked at the upgrade for the M4, one of the 
things we looked at was the feed mechanism to understand if it 
was caused by the round or the mechanics of the weapon.
    We think that we have addressed that. To be honest with 
you, we have addressed that in the magazine, where we were 
having some problems with the feed mechanism. But we are 
confident that we have picked the correct round. And we 
continue to support that.
    General Shrader. Ma'am? Ma'am, if I could address on--from 
the Marine Corps side of the house. Right now our current round 
is the M855, the 5.56. But we are conducting testing with the 
Army on the M855A1 round. That testing is--I believe is going 
to begin in April and should go through July/August timeframe. 
I can get the exact dates for that if you would like.
    Ms. Sanchez. That would be great.
    General Shrader. Yes, ma'am.
    Ms. Sanchez. And what are you testing for? What do you 
anticipate out of this test? What do you anticipate to reach?
    General Shrader. So the--what we are pursuing in a new 
round, ma'am, or an upgraded round, would be the three things 
are precision, lethality, and reduced signature, or muzzle 
suppression, if you will. Those are kind of the big three that 
we are pursuing in enhancing small arms ammunition. But those 
are the three things I would offer. The testing is going to 
begin. And once we are complete with the testing, we will have 
to analyze the data and make logical decisions out of that. 
Yes, ma'am.
    Ms. Sanchez. Great. We will be watching that also.
    Thank you, Mr. Chairman.
    Mr. Cook. Thank you very much. Congresswoman, I--by the 
way, I thought that was a great question. I am very, very 
sensitive to it for obvious historic reasons. And years ago, 
all the jamming, failure to extract. And it was like back to 
the Revolutionary War with a cleaning rod to get that out.
    Ms. Sanchez. Mr. Chairman, it is still going on. And the 
answer is we just have to teach our soldiers how to clean their 
weapons better.
    Mr. Cook. Well, I think it was more than that. You might 
not have been around at that time. But what they did was they 
changed the buffer plate, they looked at the examination, they 
examined the ammunition, the clearance. And it was a serious 
problem. And as I said, I never envisioned that it would stay 
around that long. But we are going to have further hearings on 
that very subject.
    But right now we are--they have called votes. But more 
importantly, I want to thank the panel. You know, we are 
changing the schedule and blah, blah, blah, and we are speeding 
up and everything like that. And I actually thought it was a 
great hearing. And I appreciate everybody's patience. And to 
come here right in the middle of this. And thank you so much 
for your testimony. And look forward to hearing more. Thank 
you. This meeting is adjourned.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 19, 2015

=======================================================================

   


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 19, 2015

=======================================================================
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 19, 2015

=======================================================================

      

             RESPONSE TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    Generals Williamson, Ierardi, and Lundy. The Aviation Restructure 
Initiative (ARI) will allow the Army to retain and modernize its most 
capable aircraft in all three components to meet future demands of the 
Combatant Commanders. Under current fiscal realities, the cost savings 
from ARI implementation enables accelerated modernization of the Army 
National Guard. Modernization of the H-60 Black Hawk fleet is a 
herculean effort to modernize 2,135 aircraft and consist of three 
programs: 1) UH-60A to UH-60L Recapitalization (RECAP), 2) New HH/UH-
60M procurement, and 3) UH-60L to UH-60V RECAP. These efforts began in 
Fiscal Year 2007 (FY07) with the UH-60A to UH-60L RECAP at Corpus 
Christi Army Depot (CCAD), which is scheduled to transition to the UH-
60L to UH-60V RECAP program in FY18. Also in FY07, the Sikorsky 
Aircraft Corporation began full rate production of the HH/UH-60M 
aircraft that is projected to produce 1,375 HH/UH-60M aircraft through 
approximately FY28. In FY18, CCAD will begin the UH-60L to UH-60V RECAP 
program to recapitalize and digitize 760 UH-60L aircraft through 
approximately FY34.
    Accelerating additional UH-60A to UH-60L RECAP aircraft in FY16 is 
possible, but such efforts will increase the risk in successfully 
transitioning CCAD to the UH-60L to UH-60V RECAP program in FY18. 
Steady-state CCAD capacity is 36 aircraft a year; this rate level-loads 
all phases of production, maintains skilled labor, and retains lower-
tier vendors. Maximum capacity is 48 aircraft a year. The current 
programmed production rate is approximately 40 aircraft a year. This 
rate level-loads all phases of production, maintains skilled labor 
force, retains subcomponent vendors, and supports a smooth production 
ramp for the UH-60L to UH-60V program. Production rates at the maximum 
capacity (48 aircraft) will create skilled labor and subcomponent 
vendor spikes preceding the transition to the UH-60L to UH-60V program. 
These spikes could result in loss of skilled labor and qualified 
subcomponent vendors due to excess capacity when CCAD transitions into 
initial low-rate UH-60L to UH-60V production. The labor and vendor 
losses could negatively impact the depot's ability to reach the planned 
full rate production of 48 aircraft a year beginning in FY20.
    An additional eight UH-60M aircraft can be placed on the current 
Multi-Year Contract (#8 FY12-16). This will increase procurement of 
Army configured aircraft from 94 to 102 aircraft. The Army is currently 
in negotiations on the next Multi-Year Contract (#9 FY17-21) and the 
Army will submit the Multi-Year Contract proposal in the fall of 2015 
for Congressional approval.
    Upon completion of Army Aviation restructure and modernization, the 
Army National Guard will have an end state fleet of 960 UH-60 aircraft: 
460 H-60M (includes both UH-60M assault and HH-60M Medical Evacuation 
(MEDEVAC) units) and 500 UH-60V (includes both UH-60V assault and UH-
60V MEDEVAC units).   [See page 15.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 19, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The Budget Committee's resolution has provided 
additional funding to the OCO request as a way to offset sequestration 
impacts. What are your thoughts on using the OCO request to offset 
sequestration? How would this help to mitigate the impacts on 
modernization programs?
    Generals Williamson, Ierardi, and Lundy. The Army supports the 
President's Budget request for Fiscal Year 2016 (FY16). The President's 
Budget provides the Army with the stability and the predictability to 
execute our programs efficiently and meet the requirements of the 
National Defense Strategy. Resourcing modernization through Overseas 
Contingency Operations (OCO) funding presents a significant number of 
challenges for us to utilize those dollars effectively and efficiently 
for investment in new technologies, incremental upgrades, and continued 
sustainment of proven capabilities. OCO does not enable our industry 
partners to plan efficiently or effectively because they cannot 
determine the Army's level of commitment in the budget. Long-term 
funding uncertainties are challenging the Army's ability to plan and 
execute programs and provide the right capabilities to our Soldiers.
    The current Office of Management and Budget guidelines also limit 
modernization efforts to fund replacement of losses, replacement, or 
repair of equipment returning from theater, and purchase of specialized 
in-theater equipment. Programs that are currently operating within 
these narrowly defined windows have already requested the required OCO 
in FY16; these activities have not been submitted as part of the base 
budget request. For the Army to shift acquisition programs into OCO 
Research, Development and Acquisition (RDA), the authorities would need 
to expand to include additional activities.
    Finally, funding Base RDA programs in FY16 with all or partial 
amounts of OCO RDA dollars will create limitations on funding 
authorities in the event of an FY17 Continuing Resolution. In addition, 
RDA programs marked in the Base budget and replaced with OCO incur 
additional inflexibility, as the Department will be unable to reprogram 
funds internally with Below Threshold Reprogramming actions.
    Mr. Turner. The FY16 budget request assumes the Army is allowed to 
transfer 96 National Guard Apache helicopters to the active component. 
Last year's NDAA allows the Army to transfer 48 helicopters with a 
waiver. What is the status of that waiver? Please speak to some of the 
operational and programmatic impacts you could face if the Army is only 
allowed to transfer 48 Apache helicopters in FY16?
    Generals Williamson and Lundy. In accordance with the FY15 NDAA, 
the Army is authorized to transfer up to 48 AH-64s Apaches from the 
Army National Guard (ARNG) to the Active Army between 1 October 2015 
and 31 March 2016. This transfer was contingent on the Secretary of 
Defense certifying to Congress that the transfer of 48 AH-64s Apaches 
from the ARNG to the Army would not create unacceptable risk in that 
the ARNG is less able to serve as the combat reserve of the Army. The 
Secretary of Defense submitted the certification letter to Congress on 
27 March 2015 for the transfer of 48 AH-64s.
    The FY16 Aviation Restructure Initiative (ARI) transfer plan 
complies with FY15 NDAA. If the Army is limited to only 48 AH-64 
Apaches transfers in FY16, the operational impact will include 10th 
Mountain Division at Fort Drum, New York, not receiving Apaches 
essential to build and train its Armed Reconnaissance Squadron (ARS) 
for operations in FY17. This would also result in an indefinite delay 
of the planned transfer of up to 1,500 Soldiers and family members to 
Fort Drum in support of the Army ARI. The Army would be forced to 
disrupt inductions into the AH-64E Apache remanufacturing line in Mesa, 
AZ or reduce readiness by removing additional Apaches from Active Army 
units. We would need to delay transfers of modernized UH-60L Blackhawks 
to the ARNG as backfills for transferred Apaches are curtailed, slowing 
National Guard Blackhawk modernization.
    Prohibiting future transfers beyond the initial 48 AH-64s would: 
require the Army to spend $5.52B in additional procurement and $350M 
annually in operations and sustainment funding; disrupt or delay nearly 
all aviation modernization programs to include UH-60A Blackhawk 
upgrades in the National Guard; create up to a five-year readiness hole 
and insufficient ready forces to meet demands; and/or cause additional 
Active Army aviation reductions.
    Mr. Turner. I understand the Army is continuing to review the 
performance requirements for the Modular Handgun System and that has 
caused a delay in the schedule. What is the current status of the 
Modular Handgun System, and if the program continues to be delayed have 
you considered a product improvement program for the current M9 
handgun?
    General Williamson. The Army is planning on releasing the Modular 
Handgun System (MHS) full and open competition Request for Proposals 
later in Fiscal Year 2015. The Army has considered a dual path strategy 
similar to what was done during the Individual Carbine competition. A 
dual path strategy, which invests in upgrading the current system while 
searching for a replacement, requires significant investment in 
schedule and funding. The M9 Pistol is a 30 year old system. Handgun 
technology has advanced significantly and the cost of a new, more 
capable system is less than refurbishing the M9. Additionally, although 
the M9 Pistol meets the requirements for which it was developed, both 
the Army and the manufacturer agree that a modified M9 would still not 
meet the Army's Modular Handgun System requirements. In today's current 
fiscally constrained environment and considering that a modified M9 
does not meet requirement, nor provide an opportunity for full and open 
competition, a dual path strategy for MHS is not supportable.
    Mr. Turner. Please provide some concrete examples of how major 
defense acquisition programs would be impacted in FY16? For example, 
what impact would this have on the schedules for the Army's Armored 
Multi-Purpose Vehicle program and the Joint Light Tactical Vehicle 
program? How would this impact Army Aviation modernization in FY16?
    General Williamson. Assuming a 40 percent reduction applied across 
the board in modernization investments, AMPV RDTE funding would be 
reduced by $92.1M from $230.2M. For the most part, this reduction would 
impact the procurement of prototype hardware. Currently, approximately 
$105.5M is planned for prototype hardware procurement in FY16. In order 
to maintain design and development activities, the reduction would mean 
that procurement of most prototype hardware would be deferred to FY17. 
The Critical Design Review would likely remain in FY16, but the first 
prototype delivery would slip from 1QFY17 to 4QFY17. All subsequent 
milestones would slip by approximately nine months. This slip 
presupposes that funding in future years would not be similarly 
reduced.
    Assuming a 40 percent reduction applied across the board in 
modernization investments, JLTV Other Procurement, Army funding would 
be reduced by $123.3M from $308.3M and R&D funding would be reduced by 
$13.0M from $32.5M. This reduction would delay low-rate initial 
production Live Fire and Operational testing by eight months and reduce 
the number of vehicles bought by 207-vehicles. The overall impact to 
the JLTV schedule would be delaying the program's Initial Operating 
Capability by a minimum of one year, which would result in an 
Acquisition Program Baseline breach.
    The impacts listed above only reflect Army specific impacts. 
Simultaneous changes to the U.S. Marine Corps budget will have 
additional impacts to the program.
    Assuming a 40 percent reduction applied across the board in 
modernization investments, the Aviation Restructuring Initiative would 
be severely disrupted. The Multiyear Contracts (MYCs) for CH-47 Chinook 
and UH-60 Black Hawk would be terminated and the planned MYC's for 
Black Hawk and AH-64 Apache in FY17 would be unexecutable. The AH-64 
Apache program would breach Nunn-McCurdy thresholds. Major program 
milestones for the Common Infrared Countermeasure (CIRCM) system, UH-
60V Black Hawk, and CH-47 Chinook Block II would slip at least a year 
or more. MQ-1C Gray Eagle, AH-64 Apache, UH-72 Lakota, and UH-60 Black 
Hawk fielding would be significantly delayed, adversely impacting 
support to current operations. The severe disruption of the aircraft 
industrial base would result in layoffs and the loss of many second and 
third tier suppliers.
    Mr. Turner. Regarding the Armored Multi-Purpose Vehicle program, I 
understand the report required by section 216 of the National Defense 
Authorization Act for Fiscal Year 2016 on the AMPV is now complete. 
General Williamson, please elaborate on the report's findings and 
conclusions. What was the report's conclusions regarding the 
feasibility of incorporating medical wheeled AMPV variants as part of 
the Armored Brigade Combat Team?
    General Williamson. The Army conducted a comprehensive analysis of 
the M113 Family of Vehicles (FoV) outside of the Armored Brigade Combat 
Teams (ABCT). The FoV's within the ABCTs are assigned to operational 
units, known as Echelons Above Brigade (EAB), as well as medical 
vehicles.
    The analysis determined that a portion of the EAB M113s have 
comparable requirements to M113 mission roles in the ABCT and other EAB 
M113s have vehicle requirements more comparable to ABCT combat vehicles 
(the M2 Bradley Fighting Vehicle). Furthermore, wheeled medical 
vehicles are unsuitable for ABCTs due to the inability to maneuver with 
highly mobile combat vehicles.
    Additionally, we conducted a thorough examination of the Army's 
M113 fleet in EABs and the ABCT medical variant M113 FoV. This analysis 
revealed size, weight, power, and cooling (SWaP-C) deficiencies were 
the primary capability gaps for mission command vehicles, while 
insufficient mobility and force protection/survivability are capability 
gaps in tactical level units (e.g., Sapper Company, Mobile Assault 
Company Assault Platoon).
    Because the EAB M113 mission roles have a strong commonality with 
ABCT mission roles, they share common vehicle requirements with regard 
to mobility, force protection/survivability, SWaP-C, and reliability, 
availability, and maintainability. There are no existing medical 
vehicles that are suitable candidates as a medical evacuation or 
medical treatment vehicle within the ABCT formation based on 
performance results compared against the threshold AMPV capability 
development document requirements.
    Mr. Turner. I understand FY16 is the final year for procurement of 
the Excalibur precision guided artillery round, and that technically 
the Army will be short of its war stock requirement for Excalibur 
rounds. What is your plan to buy the additional Excalibur projectiles 
the Army requires?
    General Williamson. At the end of FY16 the Army will have procured 
the 6,264 rounds that were required to be placed in inventory. However, 
the Army will end up being 566 rounds short of the 6,264 war reserve 
requirement due to rounds being fired in combat and some rounds proving 
unserviceable.
    The Army Acquisition Executive signed an acquisition decision 
memorandum on 23 December 2014 authorizing the program to procure the 
war reserve shortfall if funding becomes available.
    Mr. Turner. Please discuss your current modernization programs for 
Army National Guard aviation, specifically, can you provide additional 
details for converting UH-60A Black Hawks to the UH-60L configuration?
    General Williamson. A key component of the Army's UH-60 
modernization is the UH-60A to UH-60L recapitalization program, which 
provides another 4,000 hours or approximately 10 years of economic 
useful life to the aircraft. Initiated in Fiscal Year 2007 (FY07), the 
program recapitalizes an existing UH-60A, while concurrently upgrading 
the aircraft to the UH-60L configuration. In FY13, the Army extended 
the UH-60A to UH-60L recapitalization program from its original end 
date in FY15 to late-FY18 at approximately 40 aircraft a year. 
Primarily, this extension is focused on modernizing and increasing 
readiness in the Army National Guard. By FY16, the UH-60A to UH-60L 
recapitalization is projected to modernize 273 total aircraft, with 223 
or 82 percent of those in the Army National Guard.
    Upon completion of Army Aviation restructure and modernization, the 
Army National Guard will have an end state fleet of 960 UH-60 aircraft: 
460 H-60M (includes both UH-60M assault and HH-60M MEDEVAC units) and 
500 UH-60V (includes both UH-60V assault and UH-60V Medical Evacuation 
units).
    The Aviation Restructure Initiative (ARI) has allowed the Army to 
retain and modernize its most capable aircraft in all three components 
to meet future demands of the Combatant Commanders. Under current 
fiscal realities, the cost savings from ARI implementation enables 
accelerated modernization of the Army National Guard UH-60 fleet.
    Mr. Turner. The Budget Committee's resolution has provided 
additional funding to the OCO request as a way to offset sequestration 
impacts. What are your thoughts on using the OCO request to offset 
sequestration? How would this help to mitigate the impacts on 
modernization programs?
    Admiral Grosklags. Sequestration level funding would further 
exacerbate capability gaps; delay or forego the development and 
delivery of critical warfighting capabilities; further reduce strike 
weapons capability and capacity; and further reduce overall force 
readiness. Shifting base budget resources into Overseas Contingency 
Operations (OCO) risks undermining a mechanism meant to fund 
incremental costs of overseas conflicts and fails to provide a stable 
base budget upon which future years defense planning is based. It would 
be preferred to fund our programs in accordance with the PB16 
submission. That would provide the stability and predictability that 
our programs require to execute efficiently and effectively. It also 
would provide our industry partners, who are key to our modernization 
efforts, with more certainty and less risk as they plan their execution 
and investment strategies.
    Mr. Turner. What is the current status of the CH-53K heavy lift 
helicopter development program? Is the program still on cost and 
schedule?
    Admiral Grosklags. The CH-53K is in the Engineering, Manufacturing 
and Development (EMD) phase. More specifically, the program is 
executing ground test of the complete aircraft configuration, and is 
planning first flight in late CY15. The Ground Test Vehicle (GTV) has 
accumulated 186.5 hours. First flight aircraft (Engineering Development 
Model (EDM) 1) has successfully executed ground turns and continues 
preparations for first flight.
    Root cause of the failed main gearbox quill rods discovered in 
December 2014 has been determined, and redesigned quill rods are 
currently being tested in the main gearbox. While this failure and 
subsequent investigation resulted in a temporary cessation of ground 
testing, the program has resumed ground testing and is on track for 
first flight this year and entry into Low Rate Initial Production 
(LRIP) in FY17, as is currently scheduled. The CH-53K program remains 
executable to the PB-16 budget request.
    Mr. Turner. Please provide an update on your current plans for the 
HMMWV Sustainment Modification Initiative.
    General Shrader. The High Mobility Multipurpose Wheeled Vehicle 
(HMMWV) Sustainment Modification Initiative (SMI) has been cancelled. 
Procuring the Joint Light Tactical Vehicle (JLTV) and using the first 
buy of about 5500 vehicles to replace the most at risk portion of our 
light vehicle fleet will allow us to provide our Marines that are most 
likely to come into contact with the enemy with the most up to date 
equipment. In these times of budge constraint, we must focus on 
modernization of our tactical vehicle fleet. The savings associated 
with cancelling the HMMWV SMI program will allow us to focus on the 
Amphibious Combat Vehicle (ACV) and JLTV. We hope to eventually replace 
the entire HMMWV inventory with JLTV.
    Mr. Turner. The Budget Committee's resolution has provided 
additional funding to the OCO request as a way to offset sequestration 
impacts. What are your thoughts on using the OCO request to offset 
sequestration? How would this help to mitigate the impacts on 
modernization programs?
    General Shrader and Mr. Taylor. Continual base-to-OCO transfers 
mask our true baseline costs, hindering long-term planning and risking 
capability and capacity to respond to crises around the world. OCO is 
temporary by definition, and the Marine Corps is charged by the 82nd 
Congress to be the Nation's permanent Force in Readiness.
    Effective budgeting for baseline programs requires a stable stream 
of funding over the long term, but OCO, by its nature, can only be 
budgeted and requested in single-year increments. The current forced 
reliance on OCO removes the predictability necessary for effective 
budgeting and delays difficult but critical decisions regarding what 
requirements are both enduring and affordable. Ten years of OCO, plus 
the steady erosion of the baseline through years of efficiency cuts and 
multiple base-to-OCO transfers, have forced the Marine Corps to rely 
increasingly on OCO to fund our enduring needs.
    Mr. Turner. I understand the ACV 1.1 program plans to award two 
development contracts in fiscal year 2016 to two contractors to build 
16 test vehicles each (32 total). Please discuss the rationale for 
procuring 32 test vehicles.
    Mr. Taylor. The ACV 1.1 acquisition strategy is designed to 
maintain competition up to the Milestone C, Low Rate Initial Production 
decision currently planned for 2Q FY18. In close coordination with the 
test community, the program manager determined 16 vehicles per 
contractor is the appropriate number based on several factors including 
scope, locations and required duration to complete testing. This test 
strategy includes developmental, live fire, and reliability testing. 
Many of these tests will be conducted in parallel at various test 
locations ranging from Aberdeen to Yuma Test Center, as well as Camp 
Pendleton and Fort Greely, Alaska. Consideration was given to procuring 
more than 16 vehicles; however, the additional cost outweighed the 
projected benefits. The strategy includes conducting an operational 
assessment to ensure that the Marine Corps remains on schedule to 
deliver a much need capability to the operational forces by 2020. The 
breakdown of events for the 16 test vehicles per manufacturer is as 
follows:
    <bullet>  Verification of System Requirements. The verification of 
compliance with ACV system specifications will require the use of 11 
vehicles in concurrent developmental testing at 6 different locations 
(e.g., land mobility testing at Aberdeen and Yuma Test Centers, water 
mobility testing at Camp Pendleton, and Survivability testing at White 
Sands Missile Range) in the Engineering and Manufacturing Development 
(EMD) period. Additionally, these vehicles will also be used in 
Reliability Growth Testing and to verify compliance with EMD exit 
criteria for reliability in preparation for LRIP.
    <bullet>  Live Fire Testing. Planned live-fire tests at the 
component and system level during EMD will require 2 test vehicles to 
ensure readiness for subsequent Full Up System Level testing on LRIP 
vehicles.
    <bullet>  Training. Marine training will require the use of 3 of 
the test vehicles in EMD. This training will be used to develop New 
Equipment Training (NET) procedures, train Operating Force Marines 
prior to operational testing, and develop Tactics, Techniques, and 
Procedures prior to the required EMD Operational Assessment (OA). 
Developed NET procedures will also support subsequent vehicle fielding 
of ACV 1.1.
    Mr. Turner. If we return to funding levels required by the Budget 
Control Act, could the Marine Corps realistically afford to procure the 
JLTV and the ACV, Increment 1.1? What trade-offs would you have to make 
in modernization if we return to BCA funding levels?
    Mr. Taylor. No we will not be able to procure both the Joint Light 
Tactical Vehicle (JLTV) and Amphibious Combat Vehicle (ACV) 1.1 if we 
are forced to Budget Control Act numbers. In fact, the ACV program will 
have to be delayed indefinitely, recapitalization of legacy programs 
will fall further behind, and sustainment costs of legacy equipment 
will rise. Even incremental year-to-year tradeoffs will not permit the 
required modernization.
    Additionally, JTLV procurement will be delayed and Marines will 
continue to rely upon the HMMWV for light tactical mobility. This will 
mean using a vehicle with 170 Mean Miles Between Operation Mission 
Failure (MMBOMF) that is also less protected and less capable than the 
JLTV, which has an MMBOMF requirement of 2,400 miles.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. How important is the AMPV program to the Army and the 
Department of Defense?
    What has been put under contract thus far, and what is the current 
AMPV acquisition timeline?
    Army leadership has described the AMPV as the Army's highest combat 
vehicle priority. What is the capability gap that drives this decision?
    Several of the defense-related Committees have directed the Army 
and OSD to provide further information on AMPV program; have any of 
these Reports been delivered to the Congress?
    One of the tenants of the AMPV program has been that no currently 
fielded vehicle has the survivability, mobility and other capabilities 
which the Army requires in the AMPV. Is this still the case?
    General Williamson. The AMPV program is a high priority 
developmental effort with in the Army combat vehicle portfolio. The 
AMPV Engineering and Manufacturing Development contract with Low Rate 
Initial Production options was awarded on 23 December 2014. The LRIP 
options of up to 289 vehicles will begin delivering production vehicles 
following a Milestone C decision currently planned for Fiscal Year 2019 
(FY19). A separate Full Rate Production contract will be awarded in 
FY21 with the first unit equipped in FY21 and full operational 
capability in FY23. In addition, the M113's mission is to provide 
mission command, fire support, medical, and general support throughout 
the Armor Brigade Combat Team's (ABCT's) battlespace. The M113 became 
operationally irrelevant as they lack the protection, survivability, 
and power growth necessary to fight within the ABCTs. The AMPV will 
fill the capability gap left by the now irrelevant M113.
    The HASC directed the Army to report on its plan to eventually 
replace all M113s within Echelons Above Brigade (EAB) formations and 
assess the feasibility of incorporating wheeled medical variants within 
the ABCT. The Army submitted the report to Congress on 27 February 
2015. The HAC-D directed the Office of the Secretary of Defense Cost 
Assessment and Program Evaluation (CAPE) to report on existing wheeled 
and tracked combat vehicles used for medical purposes and compare the 
results to the Army's current plan to develop the AMPV to include an 
independent Army Surgeon General assessment on the CAPE criteria. The 
report was submitted on 6 April 2015. The SAC-D directed the Army to 
conduct an Analysis of Alternatives (AoA) for the AMPV EAB requirement 
in FY15. The AoA will be complete on the third quarter FY16. Based on 
the AMPV AoA and congressionally directed studies, the Army has 
confirmed that there are no currently fielded vehicles that meet the 
survivability, mobility, and other capabilities required for the AMPV.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
